The Department of Justice Office of the Inspector General (OIG) released a report examining
DOJ’s oversight of non-federal detention facility inspections.

The OIG’s audit found several inconsistencies and a lack of coordination between the inspection
programs of the Office of the Federal Detention Trustee (OFDT) and the United States Marshals
Service (USMS), resulting in the inefficient use of resources. The USMS did not consistently
ensure that state and local facilities housing federal detainees took corrective action on
deficiencies identified during the OFDT’s inspections, which resulted in wasted taxpayer dollars
and could potentially jeopardize the safety and security of federal detainees.

DOJ uses private facilities and intergovernmental agreements with state and local detention
facilities to aid in housing the growing number of federal detainees, which DOJ projects to be
approximately 65,000 detainees per day, on average, in fiscal year (FY) 2013. To help ensure
that these non-federal detention facilities are safe, secure, and humane, DOJ components
conduct inspections of the facilities’ compliance with established detention standards and
conditions of confinement. During FY 2012, the OFDT and the USMS had primary responsibility
for conducting these inspections, with oversight by the Office of the Deputy Attorney General
(ODAG). The OIG’s audit encompassed OFDT and USMS inspections of non-federal detention
facilities between FY 2006 and FY 2010.

The audit found that while both the OFDT and USMS used the same basic standards to evaluate
the conditions of non-federal detention facilities, these organizations applied the standards
differently. As a result, a review by the OFDT typically took 3 days, while a review by the USMS
typically took only 2 hours. The OIG review also found that the OFDT and the USMS used
different processes to determine which of the approximately 1,100 non-federal detention
facilities to review during a given fiscal year, and that neither process incorporated a risk-based
assessment to ensure that facilities most in need of review were prioritized.

The audit further found that nearly half of the 142 OFDT inspections conducted between
FY 2006 and FY 2010 reviewed a facility that was also inspected by the USMS during the same
fiscal year. Moreover, in many of these instances, the OFDT and USMS reports contained
inconsistent evaluation results.

On October 1, 2012, DOJ merged the OFDT into the USMS, which will result in changes to the
non-federal detention facility inspection practices throughout DOJ. The findings detailed in this
audit report will assist DOJ in making these changes.

The OIG’s report contains seven recommendations to the USMS and ODAG to improve the
DOJ’s oversight of non-federal detention facilities. These recommendations include establishing
guidance for a baseline number of facilities to be reviewed each year, how often individual
facilities should be inspected, the general depth of the review to be conducted, and the
required follow-up on inspection results. The USMS and ODAG agreed with
these recommendations.

The report can be found on the OIG’s website at the following
link: http://www.justice.gov/oig/reports/2013/a1306.pdf.
